APPENDICES
Appx. A: Order (U.S. Dist. Ct., C.D. Cal. case A-02
no. 18-CV-00409, March 15, 2019
A-31
Appx. B: Judgment (U.S. Dist. Ct., C.D. Cal.
case no. 18-CV-00409, June 20, 2019)
Appx. C' Memorandum Disposition (U.S. Ct. A-34
App., 9th Cir., case nos. 19-55817, August
7, 2020)
Appx. D: Order (U.S. Ct. App., 9th Cir., case A-39
no. 19-55817, October 7, 2020)

A-l

APPENDIX A
March 15, 2019, Order of the
U.S. District Court, Central District of California,
case no. 18-CV-00409
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CENTRAL DIVISION
SEPIDEH CIRINO, an
individual;

Case No.: SA CV 1800409 DOC (JDEx)

THE CIRINO FAMILY
TRUST,
an Irrevocable Trust

ORDER

PLAINTIFFS,
vs.
OCWEN LOAN
SERVICING , LLC;
WESTERN
PROGRESSIVE, LLC;
WELLS FARGO BANK,
N.A., as Trustee for
holders ofIMPAC
SECURED ASSETS
CORP. MORTGAGE
PASS-THROUGH
CERTIFICATES SERIES
2004-4;
ALL PERSONS
UNKNOWN CLAIMING
ANY LEGAL OR
EQUITABLE RIGHT,
TITLE, ESTATE, LIEN
OR INTEREST IN THE
A-2

PROPERTY DESCRIBED
IN THE COMPLAINT
ADVERSE TO
PLAINTIFFS’ TITLE, OR
ANY CLOUD ON
PLAINTIFFS' TITLE
THERETO; AND DOES
1-10 inclusive,

DEFENDANTS.
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No. SA CV 18-0409-DOC (JDEx) Date:
March 15, 2019
Title: SEPIDEH CIRINO, ET AL V. OCWEN
LOAN SERVICING LLC, ET AL.
PRESENT:
THE HONORABLE DAVID O. CARTER,
JUDGE
Deborah Lewman Not Present
Courtroom Clerk Court Reporter
ATTORNEYS PRESENT FOR
PLAINTIFF:
None Present

ATTORNEYS PRESENT FOR
DEFENDANT:
None Present
A-3

PROCEEDINGS (IN CHAMBERS): ORDER
GRANTING DEFENDANTS
OCWEN LOAN SERVICING LLC,
WELLS FARGO BANK, N.A., AND
WESTERN PROGRESSIVE LLC’S
MOTION TO DISMISS [25]
Before the Court are Ocwen Loan Servicing,
LLC (“Ocwen”), Wells Fargo Bank,N.A. (“Wells
Fargo”), and Western Progressive, LLC’s (“Western
Progressive”) (collectively, “Defendants”) Motion to
Dismiss First Amended Complaint Pursuant to Rule
12(b)(6) (“Motion”) (Dkt. 25). The Court finds this
matter appropriate for resolution without oral
argument. See Fed. R. Civ. P. 78; L.R. 7—15. Having
considered the papers in support of and in opposition
to the Motion, the Court GRANTS IN PART WITH
PREJUDICE AND GRANTS IN PART WITHOUT
PREJUDICE the Motion.
I. Background
A. Facts
The Court adopts the facts as set out by
Plaintiff Sepideh Cerino (“Plaintiff’), as an
individual and as the trustee for the Cirino Family
Trust, in the First Amended Complaint (“FAC”)
(Dkt. 23).
Page 2
Plaintiff has possessory interest in the real
property located at 27495 Hidden Trail Road,
Laguna Hills, California, 92653-5875 (the
A-4

“Property”). FAC 1f 1. On or about October 29, 2004,
Plaintiff and her husband John Cirino executed a
promissory note (“Note”) on the Property in the
amount of $1,320,000.00. FAC 29. This Note was
to secure a loan (“Loan”) from Alliance Bancorp on
behalf of GMAC Mortgage, LLC, and funded as part
of a trust for which Defendant Wells Fargo, N.A. is
trustee. FAC If 30. On or about October 29, 2004, a
deed of trust (“Deed”) was executed in the names of
John Cirino and Plaintiff in the amount of
$1,320,000.00. FAC 31. On or about October 29,
2004, Plaintiff and her husband executed a grant
deed conveying the Property to the Cirino Family
Trust (“Trust”). FAC f 35.
Plaintiff alleges that the Note was discharged
in multiple ways. First, Plaintiff alleges that the
Note was “discharged by the Secretary of Treasury
as authorized by 12 U.S.C. § 5211 as the Note was a
troubled asset.” FAC t 32.
Plaintiff also alleges that the Note was
discharged in bankruptcy proceedings pursuant to
11 U.S.C. § 524. FAC 1 33. On or about February 27,
2012, Plaintiffs husband received a discharge of his
Chapter 7 Bankruptcy, and Plaintiff alleges that the
Note was discharged as to him at this time. FAC ^11
36, 38. On or about December 21, 2012, Plaintiff
received a discharge of her Chapter 7 Bankruptcy,
case number 8;ll-bk22081-MW, and Plaintiff alleges
that the Note was discharged as to her at this time.
FAC f T1 37, 39. Plaintiff alleges that at the time of
her discharge, the Note “ceased to exist” and “[o]nly
the Deed remains in effect.” FAC If 40.
In June 2014, John Cirino passed away, and
at that time, the Trust became irrevocable. FAC f
A-5

50. On November 14, 2016, Defendant Western
caused to be recorded a Notice of Default (“NOD”)
and Election to Sell under the Deed of Trust. FAC
If 51. The NOD stated that the delinquency amount
for the Property was $501,728.00 as of November 25,
2016. FAC If 51. The NOD included a Debt
Validation Notice (“DVN”) stating the reinstatement
amount was “$1,351,485.55 plus interest from
08/01/2010.” FAC 1f 52. The NOD stated this amount
included the original sum of $1,320,000.00, plus
interest and late charges, and also informed Plaintiff
she was “responsible to pay all payments and
charges due under the terms and conditions of the
loan documents which come due subsequent to the
date of this notice including, but not limited to,
foreclosure trustee fees and costs, advances and late
charges.” FAC f 53. The DVN also stated
Defendants Ocwen and Western were “attempting to
collect a debt, and any information [they obtained
would] be used for that purpose.” FAC H 57.
On April 7, 2017, Defendants recorded a
Notice of Trustee Sale, no. 2017000139885, and a
trustee sale of the Property was calendared for May
25, 2017.
Page 3
FAC 1f 59. The Notice of Trustee Sale stated
the total “unpaid balance of the obligation secured
by the property...is $1,792,486.20.” FAC If 60.
Defendants later continued the Trustee Sale to
March 23, 2018, and served Plaintiff with a new
Notice of Trustee Sale listing the total obligation as
$1,804,184.99. FAC H 66.

A-6

B. Procedural History
Plaintiff filed the Complaint (Dkt. l) on March
14, 2018 against Ocwen Loan Servicing, LLC, Wells
Fargo Bank, N.A., Western Progressive, LLC, All
Persons Unknown Claiming, and Does 1 through 10,
inclusive. Plaintiff filed an Ex Parte Application for
Order Enjoining a Trustee Sale (Dkt. 8) on March
19, 2018, but withdrew the Application (Dkt. 13) on
March 21, 2018.
On April 10, 2018, Defendants Ocwen Loan
Servicing, LLC and Wells Fargo Bank, N.A. filed a
Motion to Dismiss the Complaint Pursuant to Fed.
Rule Civ. Pro. 12(b)(6) (Dkt. 16). Plaintiff filed the
instant FAC on April 23, 2018 (Dkt. 23). As such, the
Court Denied as Moot Defendants Ocwen and Wells
Fargo’s Motion to Dismiss (Dkt.24) on April 25,
2018.
Plaintiff s First Amended Complaint (“FAC”)
(Dkt. 23) asserts the following
fifteen claims:
(1) violation of 11 U.S.C. § 524;
(2) violation of 12 U.S.C. § 5211;
(3) violation of the Fair Debt Collection
Practices Act;
(4) negligence;
(5) intentional misrepresentation;
(6) negligent misrepresentation!
(7) fraudulent concealment;
(8) constructive fraud;
(9) civil conspiracy;
A-7

(10) defamation;
Page 4
(11) intentional infliction of emotional
distress;
(12) negligent infliction of emotional distress!
(13) quiet title!
(14) violation of California Business &
Professions Code § 17200 et seq.! and
(15) demand for an accounting.
See generally FAC.
Defendants Ocwen Loan Servicing, LLC,
Wells Fargo, N.A., and Western Progressive, LLC
(collectively, “Defendants”) filed the instant Motion
to Dismiss (“Motion”) (Dkt. 25) on May 4, 2018.
Plaintiff opposed (“Opposition”) (Dkt. 30) on May 21,
2018, and Defendants replied (“Reply”) (Dkt. 32) on
May 29, 2018.
Plaintiff filed two additional Ex Parte
Applications for Temporary Restraining Order to
Enjoin Trustee Sale on May 14, 2018 (Dkt. 26) and
June 21, 2018 (Dkt. 35), both of which the Court
denied (Dkt. 29, Dkt. 40).
On June 28, 2018, Plaintiff filed a Notice of
Filing Bankruptcy (Dkt. 41), and the Court
accordingly stayed the action (Dkt. 42).
On November 16, 2018, Defendants filed a
Request to Reopen Case and Decide Motion to
Dismiss Under Submission (Dkt. 43), as Plaintiff
had requested a voluntary dismissal of her Chapter
13 case. The Court Granted Defendants’ Request
A-8

(Dkt. 44) and reopened the case on November 19,
2018.
On November 28, 2018, Plaintiff filed a
Supplemental Declaration in Support of Plaintiffs
Opposition (“Supplemental Declaration”) (Dkt. 46)
and on November 30, 2018, Defendants filed an
Objection to the Supplemental Declaration
(“Objection”) (Dkt.47).
On February 25, 2019, Plaintiff filed a second
Notice of Filing Bankruptcy (Dkt.49), and the Court
again stayed the action accordingly (Dkt. 50). On
March 4, 2019, Defendants filed a second Request to
Reopen Case (Dkt. 51). The Court lifted the stay and
granted Defendants’ Request to Reopen Case (Dkt.
52) on March 6, 2019, finding that, under 11 U.S.C. §
362(c)(3)(A), the stay should terminate 30 days after
Plaintiff filed the second bankruptcy petition.
Page 5
II. Legal Standard
Under Federal Rule of Civil Procedure
12(b)(6), a complaint must be dismissed when a
plaintiffs allegations fail to set forth a set of facts
that, if true, would entitle the complainant to relief.
BellAtl. Corp. v. Twombly, 550 U.S. 544, 555 (2007);
Ashcroft v.Iqbal, 556 U.S. 662, 679 (2009) (holding
that a claim must be facially plausible in order to
survive a motion to dismiss). The pleadings must
raise the right to relief beyond the speculative level;
a plaintiff must provide “more than labels and
conclusions, and a formulaic recitation of the
elements of a cause of action will not do.” Twombly,
550 U.S. at 555 (citing Papasan v. Allain, 478 U.S.
265, 286 (1986)). On a motion to dismiss, a court
A-9

accepts as true a plaintiffs well-pleaded factual
allegations and construes all factual inferences in
the light most favorable to the plaintiff. See
Manzarek v. St. Paul Fire & Marine Ins. Co., 519
F.3d 1025, 1031 (9th Cir. 2008). A court is not
required to accept as true legal conclusions couched
as factual allegations. Iqbal, 556 U.S. at 678.
In ruling on a motion to dismiss, the court
need not accept as true allegations contradicted by
judicially noticeable facts, see Schwarz v. United
States, 234 F.3d 428, 435 (9th Cir. 2000), and it
“may look beyond the plaintiff s complaint to matters
of public record” without converting the motion into
a motion for summary judgment. Shaw v. Hahn, 56
F.3d 1128, 1229 n.l (9th Cir. 1995).
When a motion to dismiss is granted, the
court must decide whether to grant leave to amend.
The Ninth Circuit has a liberal policy favoring
amendments and, thus, leave to amend should be
freely granted. See, e.g., DeSoto v. Yellow Freight
System, Inc., 957 F.2d 655, 658 (9th Cir. 1992).
However, a court need not grant leave to amend
when permitting a plaintiff to amend would be an
exercise in futility. See, e.g., Butman Wine Co. v. E.
&J. Gallo Winery, 829 F.2d 729, 738 (9th Cir. 1987)
(“Denial of leave to amend is not an abuse of
discretion where the pleadings before the court
demonstrate that further amendment would be
futile.”).
III. Requests for Judicial Notice
Defendants ask the Court to take judicial
notice of the following documents:

A-10

A. “Discharge of Debtor Ch. 7,” filed in United
States Bankruptcy Court, Central District of
California, on February 22, 2012, Case No. 8U1bk22081-MW.
B. “Notice of Motion and Motion for Relief
from the Automatic Stay under 11 U.S.C. § 362 (with
Supporting Documents) Regarding Real Property,”
filed
Page 6
in United States Bankruptcy Court, Central District
of California, on October 18, 2011, Case No. 8Ul-bk22081-MW.
C. “Order Granting in Part Motion for Relief
from the Automatic Stay under 11 U.S.C. § 362 (Real
Property),” filed in United States Bankruptcy Court,
Central District of California, on November 22, 2011,
Case No. 8Ul-bk22081-MW.
D. Deed of Trust, recorded with the Orange
County Recorder, Document No. 2004000976411,
recorded October 29, 2004.
E. Complaint filed by Plaintiffs Sepideh Cirino
and the Cirino Family Trust on October 31, 2017,
Case No. 30-2017-00948886 in the Superior Court of
the State of California for the County of Orange.
Request for Judicial Notice (“RJN”) (Dkt. 252).

Judicial notice is a court’s recognition of the
existence of a fact without the necessity of formal
proof. See Castillo-Villagra v. I.N.S., 972 F.2d 1017,
1026 (9th Cir. 1992). Under Federal Rule of
Evidence 201, a court may take judicial notice of
court filings and other matters of public record.
A-ll

Harris v. Cnty. of Orange, 682 F.3d 1126, 1132 (9th
Cir. 2012) (noting that a court may take judicial
notice of “undisputed matters of public record”); see
also Reyn’s Pasta Bella, LLC v. Visa USA, Inc., 442
F.3d 741, 746, n.6 (9th Cir. 2006) (taking judicial
notice of pleadings, memoranda, and other court
filings). A court can also appropriately take judicial
notice of copies of “records and reports of
administrative bodies,” U.S. v. Richie, 342 F.3d 903,
908 (9th Cir. 2003), as well as legislative history.
Anderson v. Holder, 673 F.3d 1089, 1094, n.l (9th
Cir. 2012). The Court does not, however, take
judicial notice of reasonably disputed facts contained
within the judicially-noticed documents. See Lee v.
City ofL.A., 250 F.3d 668, 688-89 (9th Cir. 2001).
As the above documents in Defendants’ RJN
fall into the aforementioned categories, the Court
GRANTS Defendants’ Request for Judicial Notice.
TV. Discussion
In the instant Motion, Defendants ask the
Court to dismiss all of Plaintiffs claims in the First
Amended Complaint for failure to state a claim
pursuant to Rule 12(b)(6). See generally Mot. The
Court examines each of Plaintiffs fifteen claims in
turn.
Page 7
A. First Claim for Violation of 11 U.S.C. § 524
Plaintiffs first claim argues that Plaintiffs
obligation under the Note was discharged in
bankruptcy proceedings, and thus that Defendants
violated 11 U.S.C. § 524 in attempting to collect on
discharged debt. FAC If 77-116.
A-12

“It is well settled that valid, perfected liens
and other secured interests pass through bankruptcy
unaffected. ”In re Marriage of Walker, 240 Cal. App.
4th 986, 994 (2015) (citations omitted). “[A]
bankruptcy discharge extinguishes only one mode
ofenforcing a claim—namely, an action against the
debtor in personam—while leaving intact another—
namely, an action against the debtor in rem.”
Johnson v. Home State Bank, 501 U.S. 78, 84 (1991).
“Even after the debtor’s personal obligations have
been extinguished, the creditor still retains a ‘right
to payment’ in the form of its right to the proceeds
from the sale of the debtor’s property.” Id.
Here, the discharge of Plaintiffs Chapter 7
Bankruptcy states^ “a creditor may have the right to
enforce a valid lien, such as a mortgage or security
instrument... if that lien was not avoided or
eliminated in the bankruptcy case.” See RJN,
Discharge of Debtor Ch. 7, filed in United States
Bankruptcy Court, Central District of California, on
February 22, 2012, Case No. 8Ul-bk-22081-MW
(Dkt. 25-3). The instant the Deed of Trust was not
eliminated in the bankruptcy case; the Bankruptcy
Court’s November 22, 2011 Order (Dkt. 25*5)
specifically exempts the debts relating to the
Property from discharge, and notes that “[m]ovant
may enforce its remedies to foreclose upon and
obtain possession of the Property in accordance with
applicable nonbankruptcy law, but may not pursue
any deficiency claim against the Debtor or property
of the estate...” See RJN, Exh. C. (25-5) [Fn V
Further, as the Court noted in its May 18, 2018
Order Denying Plaintiff s Ex Parte Application for
Temporary Restraining Order (“May 18 Order”)
(Dkt. 29), “Plaintiff has not demonstrated that the
A-13

bankruptcy discharge extinguishes Defendants’
ability to pursue foreclosure on the secured interest
in this case.” May 18 Order at 10].
Accordingly, Plaintiff cannot succeed on a
claim pursuant to 11 U.S.C. § 524, as the lien
“pass[ed] through bankruptcy unaffected.” In re
Marriage of Walker, 240 Cal. App. 4th at 994.
Accordingly, the Court DISMISSES WITH
PREJUDICE Plaintiffs first claim for violation of 11
U.S.C. § 524.
B. Second Claim for Violations of 12 U.S.C. §
5211
Plaintiff s second claim alleges that, during
the financial crisis in 2008, the Emergency Economic
Stabilization Act (“EESA”), 12 U.S.C. §§ 5201-5261,
which
Page 8
includes the Troubled Asset Relief Program
(“TARP”), discharged all promissory notes for all
troubled assets the United States, including
Plaintiffs’ Note, and that Defendants are violating
the EESA by seeking to collect on this discharged
debt. FAC HI 10-15,117-35.
The “EESA, including various programs
created under it. . . has been consistently construed
to create no private rights or private causes of action
on the part of borrowers.” Bank ofAm., N.A. v.
Roberts, 217 Cal. App. 4th 1386, 1399 (2013) (citing
Miller v. Chase Home Finance, LLC677 F.3d 1113,
1116 (llth Cir. 2012); Wigod v. Wells Fargo Bank,
N.A., 673 F.3d 547, 559 n.4 (7th Cir. 2012); Lucia v.
Wells Fargo Bank, N.A., 798 F. Supp. 2d 1059,
A-14

1070—71 (N.D. Cal. 2011)). Thus, Plaintiff cannot
prevail on a claim against Defendants under the
EESA.
Accordingly, the Court DISMISSES WITH
PREJUDICE Plaintiffs second claim for violation of
12 U.S.C. § 5211.
C. Third Claim for Violation of the Fair Debt
Collection Practices Act
Defendants argue that Plaintiffs third claim
for violation of the Fair Debt Collection Practices Act
(“FDCPA”) must be dismissed because the activities
of loan servicers and lenders in the foreclosing of a
home does not constitute “debt collection” per the
FDCPA. Motion at 9. Plaintiff argues the FDCPA
allows for causes of action against debt collectors.
Opp’n at 8—9.
Ninth Circuit precedent makes clear that
Defendants are subject to 15 U.S.C. §1692f(6) of the
FDCPA. See Dowers v. Nationstar Mortg., LLC, 852
F.3d 964, 971 (9th Cir. 2017). The Dowers court
explained:
“Unlike under [15 U.S.C. §§] 1692c(a)(2),
1692d, and 1692e, the definition of debt collector
under Section 1692f(6) includes a person enforcing a
security interest. 15 U.S.C. § 1692a(6). Section
1692f(6) regulates more than just the collection of a
money debt. It prohibits:
Making or threatening to take any nonjudicial
action to effect dispossession or disablement of
property if—(A) there is no present right to
possession of the property claimed as collateral
through an enforceable security interest; (B) there is
A-15

no present intention to take possession of the
property! or (C) the property is exempt by law from
such dispossession or disablement. 15 U.S.C. §
1692f(6) .... Section 1692f(6) regulates nonjudicial
foreclosure activity. . . . Here, Plaintiffs alleged that
[the mortgage servicer] threatened to take
Page 9
non-judicial action to dispossess Plaintiffs of their
home without a legal ability to do so. Such conduct is
exactly what Section 1692f(6) protects borrowers
against. As a result, the district court should not
have dismissed Count Four on the ground that [the
mortgage servicer] was engaging in conduct related
to non-judicial foreclosure.”
Dowers, 852 F.3d at 971. Still, while the FDCPA
“regulates security interest enforcement activity, it
does so only through Section 1692f(6). As for the
remaining FDCPA provisions, ‘debt collection’ refers
only to the collection of a money debt.” Dowers, 852
F.3d at 970 (citing Ho v. ReconTrust Co., N.A., 840
F.3d 618, 621 (9th Cir. 2016)). Under these
remaining FDCPA provisions, as the object of a
nonjudicial foreclosure sale is to retake and resell
the security and not to collect money from the
borrower, actions taken to facilitate a non-judicial
foreclosure “are not attempts to collect ‘debt.’” Ho v.
ReconTrust, 840 F.3d at 621.
Defendants’ actions thus do not constitute
“debt collection” within its meaning under the
FDCPA, and Plaintiffs third claim as under Sections
1692c and Section 1692d of the FDCPA necessarily
fails [FN % The Court construes Plaintiffs third
claim in the FAC as, in part, under Sections 1692(c)
A-16

and 1692(d)]. In contrast, the FDCPA could prohibit
Defendants from conducting a nonjudicial
foreclosure through section 1692f, but only if
Plaintiffs can make a serious showing that: “(A)
there is no present right to possession of the
property claimed as collateral through an
enforceable security interest; (B) there is no present
intention to take possession of the property; or (C)
the property is exempt by law from such
dispossession or disablement.” Id. (quoting 15 U.S.C.
§ 1692f(6)). Plaintiffs FAC did not allege any of the
necessary aforementioned criteria under Section
1692f. See FAC HI 136-69.
Accordingly, the Court DISMISSES WITH
PREJUDICE Plaintiffs third claim for violation of
the Fair Debt Collection Practices Act under
Sections 1692c and 1692 d of the FDCPA. However,
the Court DISMISSES WITHOUT PREJUDICE
Defendants’ Motion to Dismiss with respect to
Plaintiffs third claim under 15 U.S.C. § 1692f(6) of
the FDCPA.
D. Fourth Claim for Negligence
Plaintiffs FAC alleges Defendants were
negligent because they had a legal duty of care to
Plaintiff to exercise reasonable care in maintaining,
accounting, and servicing of loan records. FAC H
173. Plaintiff alleges Defendants breached their duty
by: (l) wrongfully recording a Notice of Default; (2)
failing to sufficiently train loss mitigation
Page 10
staff and failing to maintain accurate records; and
(3) “engaging in foreclosure proceedings on the
A-17

Subject Property without having the legal authority
to do so.” FAC Hf 174-77.
Defendants argue the negligence claim should
be dismissed because the allegations of breach are
not adequately pled, and because Defendants did not
owe Plaintiff a duty of care. Mot. at 11—13.
In California, “a financial institution owes no
duty of care to a borrower when the institutions’
involvement in the loan transaction does not exceed
the scope of its conventional role as a mere lender of
money.” Nymark v. Heart Fed. Savings & Loan
Ass’n., 231 Cal. App. 3d 1039, 1096 (Cal. App. 1991).
Liability to the borrower of a loan for negligence
“arises only when the lender actively participates in
the financed enterprise beyond the domain of the
usual money lender.’” Id. at 1096 (quoting Wagner v.
Benson, 101 Cal. App. 3d 27, 35 (1980)) (internal
citations omitted).
Here, Plaintiff alleges that Defendants did not
maintain accurate records and wrongfully initiated
foreclosure, but does not allege any facts to suggest
that Defendants took action that is out of the scope
of a lender or, in other words, that Defendants
exceeded “the domain of the usual money lender.”
Nymark, 231 Cal. App. 3d at 1096. As such, Plaintiff
cannot make a claim for negligence against the
lender-defendants. Further, Plaintiff premises the
alleged breaches of duty on the contention that the
Note has been discharged, which is not the case. See
RJN, Discharge of Debtor Ch. 7, filed in United
States Bankruptcy Court, Central District of
California, on February 22, 2012, Case No. 8Ul-bk22081-MW (Dkt. 25-3).
A-18

Accordingly, Plaintiff cannot make a claim for
negligence against Defendants. The Court
DISMISSES-WITH PREJUDICE Plaintiffs fourth
claim for negligence.
E. Fifth Through Eight Claims for Intentional
Misrepresentation, Negligent Misrepresentation,
Fraudulent Concealment, and Constructive Fraud
Defendants argue Plaintiffs fifth through
eight claims should be dismissed because Plaintiff
does not make sufficient allegations with respect to
Defendants’ intent to deceive or defraud, and
because these claims hinge on the incorrect
presumption that the Note was discharged due to
Plaintiffs bankruptcy. Mot. at 13—15. Plaintiff
argues that the FAC sufficiently states Defendants
made false representations to Plaintiff and that the
fifth through eight claims are sufficiently pled as
based on the discharge of the Note. Opp’n at 11-12.
Page 11
1. Intentional Misrepresentation and Negligent
Misrepresentation Claims
Under California law, to plead a cause of
action for intentional misrepresentation, a plaintiff
must allege: (l) false representation, concealment or
nondisclosure; (2) knowledge of falsity; (3) intent to
defraud; (4) justifiable reliance; and (5) damage
resulting from the conduct. Philipson & Simon v.
Gulsvig, 154 Cal. App. 4th 347, 363 (2007). To plead
a cause of action for negligent misrepresentation, a
plaintiff must allege: “(l) a misrepresentation of a
past or existing material fact, (2) without reasonable

A-19

grounds for believing it to be true, (3) with intent to
induce another's reliance on the fact misrepresented,
(4) ignorance of the truth and justifiable reliance
thereon by the party to whom the misrepresentation
was directed, and (5) damages.” Fox v. Pollack, 181
CaLApp. 3d 954, 962 (1986).
Plaintiffs intentional misrepresentation
claim is premised on the contention that the Note
was discharged, and thus Defendants intentionally
made misrepresentations regarding the NOD. FAC
Til 184—188. Plaintiffs negligent misrepresentation
claim is similarly premised on the contention that
the Note was discharged but that Defendants made
misrepresentations based on that discharge. FAC
205—211. As it is established that the Note was not
discharged by Plaintiffs bankruptcy, the FAC does
not sufficiently allege that Defendants made a “false
representation, concealment, or nondisclosure” or a
“misrepresentation,” as required for intentional or
negligent misrepresentation. Philipson & Simon, 154
Cal. App. 4th at 363; Fox, 181 Cal. App. 3d at 962.
Accordingly, the Court DISMISSED
WITHOUT PREJUDICE Plaintiffs fifth claim for
intentional misrepresentation and sixth claim for
negligent misrepresentation.
2. Fraudulent Concealment and Constructive Fraud
Claims
“In order to establish fraudulent concealment, the
complaint must show; (l) when the fraud was
discovered; (2) the circumstances under which the
fraud was discovered; and (3) that the plaintiff was
not at fault for failing to discover it or had no actual
or presumptive knowledge of facts to put him on
A-20

inquiry.” Baker v. Beech Aircraft Corp., 39 Cal. App.
3d. 315, 321 (1974).
For a claim for constructive fraud, the
pleading must allege: “(l) any breach of duty which,
without an actual fraudulent intent, (2) gains an
advantage to the person in fault. . . by misleading
another to his prejudice.” Cal. Civ. Code § 1573.
In addition, “ [t] he requirement of specificity
in a fraud action against a corporation requires the
plaintiff to allege the names of the persons who
allegedly made the
Page 12
fraudulent representation, their authority to speak,
to whom they spoke, what they said or wrote, and
when it was said or written.” Tarmann v. State
Farm Mutual Auto Insurance Co., 2 Cal. App. 4th.
153, 157 (1991). “Plaintiffs must not only specify how
alleged statements were false, but must specify how
statements were false when they were made.”
Mlejnecky v. Olympus Imaging Am., Inc., 2011 WL
1497096 (E.D. Cal. Apr. 19, 2011).
Plaintiff does not allege facts regarding: (i)
the names of Defendants’ representatives who made
material representations or concealed facts, or the
authority that those representatives purported to
have when such misrepresentations or concealed
facts occurred; (ii) that Defendants had an intent to
induce reliance or conceal material facts! and (iii)
that Plaintiff had actually relied on any
misrepresentation made by any particular individual
employed by Defendants. FAC HI 238-58.
Accordingly, Plaintiff has failed to plead the
fraudulent concealment and constructive fraud
A-21

claims with the specificity required under these
circumstances. Moreover, as noted above, Plaintiffs
seventh and eighth claims rely on the incorrect
premise that Plaintiffs obligation on the Note was
discharged in her bankruptcy proceedings. Thus,
Plaintiff has not identified a breach of duty or fraud
under these claims, and the claims necessarily fail.
Accordingly, the Court DISMISSES
WITHOUT PREJUDICE Plaintiffs seventh claim
for constructive fraud and Plaintiffs eighth claim for
fraudulent concealment.
F. Ninth Claim for Civil Conspiracy
Defendant argues Plaintiff s ninth claim for
civil conspiracy should be dismissed because it is
uncertain what conspiracy Plaintiff is alleging, and
because the claim is not pled with particularity. Mot.
at 19—20. Plaintiff alleges she has pled sufficient
facts of a scheme by Defendants to dispossess
Plaintiff of her property. Opp’n at 15.
“To support a conspiracy claim, a plaintiff
must allege the following elements^ (l) the formation
and operation of the conspiracy, (2) wrongful conduct
in furtherance of the conspiracy, and (3) damages
arising from the wrongful conduct.” AREIII Cases,
216 Cal. App. 4th 1004, 1022 (2013) (internal
quotations and citations omitted).
Similar to her fraud and concealment claims,
Plaintiffs civil conspiracy claim relies on her
allegation that her obligations under the Note were
discharged in her bankruptcy proceedings. FAC KH
261-68. She argues that because the Note was

A-22

discharged, Defendants’ actions in pursuit of
foreclosure and repayment on the Note were
wrongful conduct in furtherance of a conspiracy
between them. See id. Because the Note was not
discharged, Plaintiff cannot allege “wrongful conduct
in furtherance of a
Page 13
conspiracy” based on attempted collection on the
note by Defendants. See AREIII Cases, 216 Cal.
App. 4th at 1022. Accordingly, the Court
DISMISSES WITHOUT PREJUDICE Plaintiffs
ninth claim for civil conspiracy.
G. Tenth Claim for Defamation
Defendants seek to dismiss Plaintiffs tenth
claim for defamation because Defendants’ acts are
privileged under California law, and thus Plaintiff
cannot meet the unprivileged requirement of
pleading a defamation cause of action. Mot. at 15.
Plaintiff argues she can make a defamation claim
because Defendants acted with malice. Opp’n at 15—
16.
Defamation “involves the intentional
publication of a statement of fact that is false,
unprivileged, and has a natural tendency to injure or
which causes special damage.” Smith v. Maldonado,
72 Cal. App. 4th. 637, 645 (1999). “Publication
means communication to some third person who
understands the defamatory meaning of the
statement and its application to the person to whom
reference is made.” Id. In all cases of alleged
defamation, the truth of the offensive statements or
communication is a complete defense against civil
A-23

liability, regardless of bad faith or malicious
purpose. Id. at 646.
Under California Civil Code section 2924,
“the statutorily required mailing, publication, and
delivery of notices in nonjudicial foreclosure, and the
performance of statutory nonjudicial foreclosure
procedures, to be privileged communications.”
Kachlon v. Markowitz, 168 Cal. App. 4th 316, 333
(2008). Thus, unless a lender has exhibited malice, a
plaintiff cannot make a claim of defamation based on
such communication. See Ogilvie v. Select Portfolio
Servicing, 2012 WL 3010986, at *4 (N.D. Cal. July
23, 2012).
Plaintiff alleges that Defendants defamed her
when they recorded the Notice of Default and Notice
of Trustee Sale, because Plaintiff owed nothing to
Defendants as the Note was discharged. FAC *[H|
269-77. However, as the recording of the
Substitution of Trustee, Notice of Default, and
Notice of Trustee Sale with the County Recorder are
all privileged acts, their proper publication cannot be
the basis for a defamation claim. Cal. Civ. Code §
2924(d); Kachlon v. Markowitz, 168 Cal. App. 4th
316, 333 (2008). Plaintiffs opposition argues
Defendants exhibited malice, yet the FAC fails to
allege any such malice. See FAC
269—77.
Moreover, even if Plaintiff had alleged malice, the
alleged defamatory statement is in regards to
Plaintiffs default, and thus this claim relies on
Plaintiffs allegation that the Note was discharged,
which Defendants have shown is incorrect. The
statements in question are thus not false, and
Plaintiffs tenth claim for defamation necessarily
fails.
A-24

Page 14
Accordingly, the Court DISMISSES WITH
PREJUDICE Plaintiffs tenth claim for defamation.
H. Eleventh and Twelfth Claims for
Intentional Infliction of Emotional
Distress and Negligent Infliction of Emotional
Distress Defendants argue Plaintiffs eleventh and
twelfth claims for intentional and negligent
infliction of emotional distress should be dismissed
because Plaintiff has not alleged any extreme or
outrageous conduct on behalf of the Defendants.
Motion at 16. Plaintiff argues her pleading is
sufficient because an intentional, unlawful
foreclosure can sustain an emotional distress claim.
Opp’n at 16-17.
To make a claim of intentional infliction of
emotional distress (“IIED”), a plaintiff must plead
“extreme and outrageous conduct by the defendant
with the intention of causing, or reckless disregard
of the probability of causing, emotional distress! (2)
the plaintiff s suffering severe or extreme emotional
distress! and (3) actual and proximate causation of
the emotional distress by the defendant’s outrageous
conduct.” Hughes v. Pair, 46 Cal. 4th 1035, 1050
(2009). For a claim of negligent infliction of emotion
distress (“NIED”), a plaintiff must plead the
traditional element of negligence, that is, a duty of
care, breach, causation, and damages. Slaughter v.
Legal Process & Courier Service, 162 Cal. App. 3d
1236, 1249 (1984).
“[C]ourts have recognized that the attempted
collection of a debt by its very nature often causes
the debtor to suffer emotional distress.” Ross v.
A-25

Creel Printing & Publishing Co., Inc., 100 Cal. App.
4th 736, 745 (2002). Thus, a claim that emotional
distress is caused by the execution of a normal
foreclosure proceeding, absent outrageous conduct, is
insufficient. See Ramirez v. Barclays Capital
Mortgage, 2010 WL 2605696, at *10 (dismissing
intentional infliction of emotional distress claim
because “[t]he complaint points to no conduct of
[defendant] outside that generally accepted in debt
collection and/or the foreclosure process, which is
inherently stressful for debtors”); see also Quinteros
v. Aurora Loan Serv., 740 F. Supp. 2d 1163, 1172
(E.D. Cal. 2010) (noting that recording, commencing,
or continuing foreclosure proceedings does not
constitute the extreme or outrageous conduct
required to assert negligent infliction of emotional
distress claim).
With regard to IIED, the FAC alleges that
Defendants’ conduct in pursuing nonjudicial
foreclosure after alleged discharge of the note. FAC
U 282. As mentioned above, the Note was not
discharged in Plaintiffs bankruptcy, and thus
Plaintiff cannot make a claim of “outrageous”
conduct based on Defendants’ utilization of
foreclosure. Hughes, 46 Cal. 4th at 1050. Plaintiff
also fails to allege any particular outrageous
Page 15
conduct other than collection of the debt itself, which
is insufficient to make an IIED claim. Similarly, the
FAC alleges NIED based on Defendants’ alleged
discontinued interest in the property. FAC f 296.
Further, the FAC fails to allege a duty and breach of

A-26

duty as needed for a cognizable NIED claim. FAC f
289-300.
Accordingly, the Court DISMISSES WITH
PREJUDICE Plaintiffs eleventh claim for
intentional infliction of emotional distress and
Plaintiff s twelfth claim for negligent infliction of
emotional distress.
I. Thirteenth Claim for Quiet Title
Defendants move to dismiss Plaintiffs claim
for quiet title because Plaintiff fails to allege that
she discharged the debt secured by the property.
Mot. at 17. Plaintiff counters that a claim for quiet
title may move forward because Plaintiff has pled
that she has an equitable interest in the deed. Opp’n
at 18.
To state a claim for quiet title, a plaintiff is
required to discharge the debt secured by the
property. Aguilar v. Bocci, 39 Cal. App. 3d 475, 477—
78 (1974). Here, Plaintiff appears to argue that there
is no debt remaining on the property because the
Note was discharged. See FAC ft 301-11. However,
as the Note has not been discharged, Plaintiff cannot
allege that she has discharged the debt secured by
the property in question. As such, Plaintiffs claim
for quiet title necessarily fails.
Accordingly, the Court DISMISSES WITH
PREJUDICE Plaintiffs thirteenth claim for quiet
title.
J. Fourteenth and Fifteenth Claims for
Violation of Business & Professions Code § 17200 et
seq and Demand for Accounting

A-27

Defendants argue Plaintiffs fourteenth claim
for violation of California Business & Professions
Code § 17200, et seq. and fifteenth claim for demand
for accounting for should be dismissed because both
claims depend on the false allegation that the Note
was extinguished. Mot. at 18-20. Plaintiff argues
the FAC sufficiently states both claims because
Plaintiff alleges that Defendants violated her rights
by seeking payment of debt allegedly discharged in
foreclosure. Opp’n 19—21.
1. Business and Professions Code § 17200, et
seq. Claim
To state a claim under Business and
Professions Code § 17200, et seq. (“UCL”), a plaintiff
must allege that a given defendant engaged in an
“unlawful, unfair or fraudulent business act or
practice” which caused the plaintiff to suffer “injury
in fact” and “lost
Page 16
money or property.” Cal. Business & Prof. Code §
17204! Bernardo v. Planned Parenthood Fed. of
America, 115 Cal. App. 4th 322 (2004).
Plaintiff pleads that Defendants actions in
seeking repayment of her obligation under the Note
and seeking foreclosure on the Property securing the
Note were unlawful, unfair, or fraudulent because
the Note was discharged. FAC 111 312-16. Again, as
the Note was not, in fact, discharged due to
Plaintiffs bankruptcy, Plaintiff cannot make a claim
of “unlawful, unfair or fraudulent” conduct by
Defendants based on Defendants’ seeking repayment
of Plaintiffs debt. Cal. Business & Prof. Code §
17204. As such, Plaintiffs claim for violation of
A-28

Business and Professions Code § 17200, et seq.
necessarily fails. The Court DISMISSES WITH
PREJUDICE Plaintiffs fourteenth claim.
2. Demand for Accounting Claim
Plaintiff s demand for accounting claim
alleges that Defendants were unjustly enriched due
to fraudulent, deceptive, and misleading conduct.
FAC 1 362. Defendants argue this claim should be
dismissed because it depends on the validity of
Plaintiffs underlying claims, which are defective,
while Plaintiff argues a court-ordered accounting is
proper so as to verify the debt Defendants allege
that Plaintiff owes. Mot. at 18-19;Opp’n at 20-21.
“The right to an accounting is derivative and
depends on the validity of a plaintiffs underlying
claims.” Duggal v. G.E. Capital Communications
Services, Inc., 8lCal. App. 4th 81, 95 (2000). See also
Janis v. California State Lottery Com., 68 Cal. App.
4th 824, 833—34 (1998) (dismissing a claim for
accounting because all of the plaintiffs other claims
failed). Here, because all of Plaintiffs underlying
claims fail, so too does Plaintiffs claim for a demand
of accounting.
Accordingly, the Court DISMISSES
WITHOUT PREJUDICE Plaintiffs Plaintiffs
fifteenth claim of a demand for accounting.
V. Disposition
For the foregoing reasons, the Court GRANTS
WITH PREJUDICE Defendant’s Motion to Dismiss
as to Plaintiffs first claim for violation of 11 U.S.C. §
524, second claim for violation of 12 U.S.C. § 5211,
Plaintiff s third claim for violation of the Fair Debt
A-29

Collection Practices Act under Sections 1692c and
1692d of the FDCPA, fourth claim for negligence,
tenth claim for defamation, eleventh claim for IIED,
twelfth claim
Page 17
for NIED, thirteenth claim for quiet title, and
fourteenth claim for violation of Business and
Professions Code § 17200 et seq.
The Court GRANTS WITHOUT PREJUDICE
Defendant’s Motion to Dismiss as to Plaintiff s
Defendants’ Motion to Dismiss with respect to
Plaintiffs third claim under 15 U.S.C. § 1692f(6) of
the FDCPA, fifth claim for intentional
misrepresentation and sixth claim for negligent
misrepresentation, seventh claim for constructive
fraud and eighth claim for fraudulent concealment,
ninth claim for civil conspiracy, and fifteenth claim
of a demand for accounting. Plaintiff may file an
amended complaint with the Court no later than
April 5, 2019.
The Clerk shall serve this minute order on the
parties.

A-30

APPENDIX B
June 20, 2019, Judgment of Dismissal of the
U.S. District Court, Central District of California,
case no. 18-CV-00409
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CENTRAL DIVISION
SEPIDEH CIRINO, an
individual;

Case No.: SA CV 1800409 DOC (JDEx)

THE CIRINO FAMILY
TRUST,
an Irrevocable Trust

JUDGMENT OF
DISMISSAL

PLAINTIFFS,
vs.
OCWEN LOAN
SERVICING , LLC;
WESTERN
PROGRESSIVE, LLC;
WELLS FARGO BANK,
N.A., as Trustee for
holders of IMPAC
SECURED ASSETS
CORP. MORTGAGE
PASS-THROUGH
CERTIFICATES SERIES
2004-4;
ALL PERSONS
UNKNOWN CLAIMING
ANY LEGAL OR
EQUITABLE RIGHT,
TITLE, ESTATE, LIEN
OR INTEREST IN THE
A-31

PROPERTY DESCRIBED
IN THE COMPLAINT
ADVERSE TO
PLAINTIFFS' TITLE, OR
ANY CLOUD ON
PLAINTIFFS' TITLE
THERETO; AND DOES
1-10 inclusive,

DEFENDANTS.

JUDGMENT OF DISMISSAL
TO ALL PARTIES AND TO THEIR
ATTORNEYS OF RECORD HEREIN:
The Motion to Dismiss brought by Defendants
OCWEN LOAN SERVICING, LLC; WELLS FARGO
BANK, N.A., AS TRUSTEE FOR HOLDERS OF
IMPAC SECURED ASSETS CORP., MORTGAGE
PASS THROUGH CERTIFICATES, SERIES 2004-4;
and WESTERN PROGRESSIVE, LLC (collectively
“Defendants”), having been granted with prejudice
on May 29, 8 | | 2019,
IT IS HEREBY ORDERED, ADJUDGED
AND DECREED that:
1. Plaintiffs Sepideh Cirino and the Cirino
Family Trust (“Plaintiffs”), shall take nothing by
way of the operative Second Amended Complaint;
and 2. Judgment on Plaintiffs' Complaint shall be
entered in favor of Defendants.
IT IS SO ORDERED.
A-32

DATED: June 20, 2019
UNITED STATE DISTRICT COURT
The Honorable DAVID 0. CARTER

A-33

APPENDIX C
August 7, 2020, Memorandum of Decision of the
9th Circuit Court of Appeal, case no. 19-55817
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
SEPIDEH CIRINO, an
individual;

Case No.: 19-55817
MEMORANDUM

THE CIRINO FAMILY
TRUST,
an Irrevocable Trust
PLAINTIFFS,
vs.
OCWEN LOAN
SERVICING , LLC;
WESTERN
PROGRESSIVE, LLC;
WELLS FARGO BANK,
N.A., as Trustee for
holders of IMPAC
SECURED ASSETS
CORP. MORTGAGE
PASS-THROUGH
CERTIFICATES SERIES
2004-4;
ALL PERSONS
UNKNOWN CLAIMING
ANY LEGAL OR
EQUITABLE RIGHT,
TITLE, ESTATE, LIEN
OR INTEREST IN THE
PROPERTY DESCRIBED
IN THE COMPLAINT
A-34

ADVERSE TO
PLAINTIFFS' TITLE, OR
ANY CLOUD ON
PLAINTIFFS' TITLE
THERETO; AND DOES
1-10 inclusive,

DEFENDANTS.
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEAL
FOR THE NINTH CIRCUIT
MEMORANDUM*
Appeal from the United States District Court
for the Central District of California
David O. Carter, District Judge, Presiding
Submitted August 6, 2020**
San Francisco, California
Before: THOMAS, Chief Judge, and HAWKINS and
McKeown, Circuit Judges
Sepideh Cirino, individually and as trustee of the
Cirino Family Trust, appeals pro se from the district
court’s order dismissing with prejudice her second
amended complaint. We have jurisdiction under 28
U.S.C. §1291. We review de novo the district court’s
grant of a motion to dismiss. Edwards v. Marin
Park, Inc. 356 F.3d 1058, 1061 (9th Cir. 2004), and
we affirm.

A-35

Cirino contends that the district court erred
by dismissing all claims in her second amended
complaint and several claims in her first amended
complaint with prejudice because the complaints
adequately alleged that the defendants had no
ownership rights in the note secured by a deed of
trust on certain real property and, as a result, had
not legal authority to commence a nonjudicial
foreclosure on the property. See Lacey v. Maricopa
Cnty., 693 F.3d 896, 928 (9th Cir. 2012) (en banc)
(“For claims dismissed with prejudice and without
leave to amend, we will not require that they be
repled in a subsequent amended complaint to
preserve them on appeal.”). The district court did
not err by concluding the complaints failed to state
causes of action on this theory notwithstanding the
conclusory allegations that the note was discharged
in bankruptcy or as a result of the Troubled Asset
Relief Program and that the defendants, as
assignees and agents, are not the true holders of the
note. See, e.g., Ashcroft v. Iqbal, 556 U.S. 662, 67879 (2009) (explaining claim must be facially
plausible to survive motion to dismiss and court
need not accept as true legal conclusions presented
as factual allegations).
Further, contrary to Cirino’s contention, the
district court did not make impermissible factual
findings and instead permissibly evaluated whether
the pleadings contained sufficient factual allegations
to plausibly demonstrate the elements of each
asserted claim. See BellAtl. Corp. v. Twombly, 330
U.S. 544, 555-56 (2007) (setting forth plausibility
pleading standard); Lee v. City ofLos Angeles, 250
F.3d 668, 688-89 (9th Cir. 2001) (recognizing court
may consider matters of public record and
A-36

documents incorporated by reference in complaint
without converting motion to dismiss into motion for
summary judgment); Schwarz v. United States, 234
F.3d 428, 435 (9th Cir. 2000) (“In reviewing a Rule
12(b)(6) motion . . . [t]he court need not accept as
true . . . allegations that contradict facts that may be
judicially noticed by the court” (internal citations
omitted).
The district court also did not err by
dismissing Cirino’s misrepresentation based claims
predicated on allegedly false statements regarding
the amounts owed on the loan because the second
amended complaint failed, at minimum, to allege
facts plausibly demonstrating detrimental reliance.
See, e.g., Philipson & Simon v. Gulsvig, 154
Cal.App.4th 347, 363 (2007) (justifiable reliance as an
element of intentional misrepresentation); Fox v.
Pollack, 181 Cal.App.3d 954, 962 (1986) (justifiable
reliance as an element of negligent
misrepresentation).
Because Cirino’s demand of an accounting was
a derivative claim, the district court did not err by
dismissing it after concluding the second amended
complaint failed to state any predicate claims. See
Duggal v. G.E. Capital Commc’ns Serves., Inc., 81
Cal.App.4th 8fl, 95 (2000) (“The right to an
accounting is derivative and depends on the validity
of plaintiffs underlying claims.”).
Finally, the district court did not abuse its
discretion in resolving defendants’ request for
judicial notice. See Khoja v. Orexigen Theraputics,
Inc., 899 F.3d. 988, 1001 (9th Cir. 2018).
AFFIRMED.
A-37

* This disposition is not appropriate for
publication and is not precedent except as provided
by the Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case
is suitable for decision without oral argument. See
Fed. R. App. P. 34(a)(2).

A-38

APPENDIX D
October 7, 2020, Order
9th Circuit Court of Appeal, case no. 19-55817
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
SEPIDEH CIRINO, an
individual;

Case No.: 19-55817
ORDER

THE CIRINO FAMILY
TRUST,
an Irrevocable Trust
PLAINTIFFS,
vs.
OCWEN LOAN
SERVICING , LLC;
WESTERN
PROGRESSIVE, LLC;
WELLS FARGO BANK,
N.A., as Trustee for
holders of IMPAC
SECURED ASSETS
CORP. MORTGAGE
PASS-THROUGH
CERTIFICATES SERIES
2004-4;
ALL PERSONS
UNKNOWN CLAIMING
ANY LEGAL OR
EQUITABLE RIGHT,
TITLE, ESTATE, LIEN
OR INTEREST IN THE
PROPERTY DESCRIBED
IN THE COMPLAINT
A-39

ADVERSE TO
PLAINTIFFS' TITLE, OR
ANY CLOUD ON
PLAINTIFFS' TITLE
THERETO; AND DOES
1-10 inclusive,

DEFENDANTS.
UNITED STATES COURT OF APPEAL
FOR THE NINTH CIRCUIT
ORDER
Before^ THOMAS, Chief Judge, and
HAWKINS and McKeown, Circuit Judges
The Petition for Rehearing (Dkt. Entry #20) is
DENIED.

A-40

